HHS/OIG, Audit -"Audit of Medicaid Payments for Skilled Professional Medical Personnel Reimbursed at Enhanced
Rates - October 1, 2002 Through September 30, 2003, Michigan Department of Community Health,"(A-05-04-00029)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Payments for Skilled Professional Medical Personnel Reimbursed at Enhanced Rates - October 1, 2002
Through September 30, 2003, Michigan Department of Community Health," (A-05-04-00029)
October 5, 2004
Complete
Text of Report is available in PDF format (465 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if Michigan properly claimed Federal Medicaid funding at the enhanced rate
for skilled professional medical personnel.  We found that Michigan improperly claimed costs totaling $87,151 for
Federal fiscal year 2003.  These costs were claimed because the State agency did not have procedures in place that
ensured only qualified individuals were claimed as skilled professional medical personnel.  Enhanced rates were improperly
claimed for an employee whose position did not require medical expertise, one clerical staff who did not work for skilled
professional medical personnel staff, and three employees who did not possess the required professional training and experience.  We
recommended that the State agency refund $87,151 for the Federal share of unallowable Medicaid costs associated with the
five individuals improperly claimed at the enhanced rate and implement procedures to ensure that only qualified individuals
are claimed as skilled professional medical personnel.  The State agency agreed with our recommendations.